March 2005
Report No. 05-015


DSC’s Process for Tracking and Evaluating
the Impact of the MERIT Guidelines




             AUDIT REPORT
                                                                                             Report No. 05-015
                                                                                                  March 2005


                                         DSC’s Process for Tracking and Evaluating the Impact of
                                         the MERIT Guidelines
                                         Results of Audit
                                         DSC collects and evaluates readily available information related to the
                                         efficiency, quality and integrity of all examinations, including those
Background and Purpose of                conducted under the MERIT guidelines. This information shows
Audit                                    that application of the MERIT guidelines for well-rated and well-
                                         capitalized institutions has increased examination efficiency primarily as
The FDIC’s Division of Supervision       the result of fewer loans being reviewed compared to prior risk-focused
and Consumer Protection (DSC) is         examinations. Further, DSC has risk management processes and
responsible for examining and            monitoring systems in place for monitoring its overall examination
supervising approximately 5,300          program and the risks to individual institutions and the industry as a
state non-member banks. For              whole. However, DSC could benefit from a monitoring process that
examinations commencing after            specifically evaluates, in terms of risk, the outcome of the reduced loan
March 31, 2002, DSC implemented          penetration at MERIT examinations, either at the institution level or,
the MERIT guidelines to assist
                                         more broadly, at the regional or national level. Such ongoing analysis
examiners in the risk-focusing
process for well-rated, well-
                                         would assist DSC in determining whether recommended loan penetration
capitalized banks with assets totaling   ranges under MERIT are commensurate with the risk associated with
$250 million or less, while              various types of loan portfolios in low-risk institutions. Finally, we
maintaining the integrity of the         found that examiners are required to justify loan penetration levels
examination process. Subsequently,       above, but not below, MERIT-recommended ranges. A clarification of
DSC increased the total asset            this policy would promote the balance DSC is seeking to achieve in
threshold to $1 billion for              providing risk-based coverage under MERIT and would ensure that
examinations commencing after            reduced loan penetration is adequately supported.
January 31, 2004.                        Recommendations and Management Response
The MERIT procedures
reemphasized existing risk-focused       We recommended that DSC implement a monitoring process for
examination procedures and the use       tracking and evaluating the impact of reduced loan coverage at MERIT-
of examiner judgment to properly         eligible institutions and that examiners justify loan penetration levels
assess a financial institution’s risk    below MERIT-recommended ranges. DSC management disagreed with
profile. The MERIT guidelines            the recommendation related to a monitoring process; however, DSC
established loan penetration ratios to   provided information on its internal monitoring processes for all
help standardize the percentage of
                                         examinations, including MERIT examinations. DSC responded that the
loans reviewed during MERIT
                                         MERIT guidelines are entirely consistent with the risk-focused
examinations.
                                         examination approach and that there are a number of other processes that
The overall objective of this audit      provide assurances with regard to the quality and integrity of
was to determine whether DSC             examination results, including examinations conducted using the MERIT
adequately tracks and evaluates          guidelines. DSC concurred with the remaining recommendation
achievement of its goals for the         regarding justification of reduced loan penetration ratios. Additionally,
MERIT guidelines. Specifically,          DSC indicated that it plans to closely review and assess loan
we assessed the adequacy of              penetrations in an expanded internal review program for its field offices,
processes, reports, and other data       which addresses the intent of our recommendation. We consider
that DSC uses in monitoring              management’s planned actions responsive to the recommendations.
MERIT examination coverage of
financial institutions.

  To view the full report, go to
  www.fdicig.gov/2005reports.asp
                                  TABLE OF CONTENTS

BACKGROUND                                                                    1
    Risk-focused Examination Process                                          1
    DSC’s Process Redesign Efforts                                            2
           Process Redesign I Streamlines Examination, Supervision, and       2
           Application Process
           Process Redesign II Establishes MERIT Guidelines                   2
           Enterprise Risk Management                                         3

RESULTS OF AUDIT                                                              5

MONITORING THE EFFICIENCY AND RISK OF MERIT EXAMINATIONS                      5
    Monitoring Component of the ERM Model                                     5
     Reduction in Average Examination Hours                                   6
            Corporate Performance Objectives                                  6
            MERIT Guidelines                                                  6
            Effects of Reduced Loan Coverage                                  8
     Approaches for Monitoring the Impact of the MERIT Guidelines             9
     Conclusion                                                              11

RECOMMENDATIONS                                                              11

CORPORATION COMMENTS AND OIG EVALUATION                                      12

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY                                14
APPENDIX II: MERIT GUIDELINES                                                16
APPENDIX III: CORPORATION COMMENTS                                           19
APPENDIX IV: MANAGEMENT RESPONSE TO
              RECOMMENDATIONS                                                28

TABLES
Table 1: MERIT Examinations Compared to Prior FDIC Examinations               7
Table 2: Non-MERIT Examinations of 1- and 2- Rated Banks Compared to Prior    7
FDIC Examinations
Table 3: Loan Penetration Ratios: MERIT Examinations Compared to Prior        8
FDIC Examinations Conducted Before the Implementation of the MERIT
Guidelines
Table 4: Loan Penetration Ratio Ranges of Recent MERIT Examinations           9
Compared to Ranges for Prior MERIT Examinations


FIGURE
Enterprise Risk Management Model                                             4
Federal Deposit Insurance Corporation                                                             Office of Audits
801 17th Street NW, Washington, DC 20434                                             Office of Inspector General

DATE:                             March 31, 2005

MEMORANDUM TO: Michael J. Zamorski, Director
               Division of Supervision and Consumer Protection


FROM:                              Russell A. Rau [Electronically produced version; original signed by Russell A. Rau]
                                   Assistant Inspector General for Audits

SUBJECT:                           DSC’s Process for Tracking and Evaluating the Impact of
                                   the MERIT Guidelines
                                   (Report No. 2005-015)


This report presents the results of our audit of the Federal Deposit Insurance Corporation (FDIC)
Division of Supervision and Consumer Protection’s (DSC) process for monitoring the
effectiveness of the Maximum Efficiency, Risk-focused, Institution Targeted (MERIT)
guidelines for safety and soundness examinations. The MERIT guidelines are part of DSC’s
broader risk management and examination program for all FDIC-supervised institutions, and are
applicable to well-rated and well-capitalized institutions with total assets of $1 billion or less.
The overall objective of this audit was to determine whether DSC adequately tracks and
evaluates achievement of its goals for the MERIT guidelines. Specifically, we assessed the
adequacy of processes, reports, and other data that DSC uses in monitoring MERIT examination
coverage of financial institutions. Appendix I of this report discusses our audit objective, scope,
and methodology in detail. We are currently conducting a separate audit to determine whether
DSC’s process for determining an institution’s eligibility for a MERIT examination adequately
considers the appropriate risk factors. We will present the results of that audit in a future report.

BACKGROUND

The FDIC helps to promote confidence and stability in the Nation’s financial system by insuring
deposits in banks and thrifts. The FDIC examines and supervises approximately 5,300 state non-
member banks, including state-licensed insured branches of foreign banks and state-chartered
mutual savings banks. DSC has conducted several process improvement efforts that have
changed its processes for examinations and supervision, including the implementation of a risk-
focused examination process and streamlined examination procedures at banks with low-risk
profiles.

Risk-focused Examination Process

On October 1, 1997, the FDIC, in conjunction with the Federal Reserve Board (FRB) and
Conference of State Bank Supervisors (CSBS), began implementing a new risk-focused
examination process designed to focus safety and soundness examinations on bank functions that
pose the greatest risk exposure. To ensure consistent application nationwide, DSC developed
examination procedure modules to provide examiners with a tool to focus on risk management


                                                        1
and to establish an appropriate scope for the examination process. These modules include
functional areas such as risk scoping, capital adequacy, loan portfolio management, earnings
analysis, and anti-money laundering. Each module contains a series of examination decision
factors and procedures for examiners to consider when evaluating an institution’s management
strategies and associated risk control practices. To reduce the amount of work conducted in
completing the modules, an examiner can choose to test, evaluate, and accept the results from
institution control systems such as internal and external audits, loan policy, loan review, and loan
grading systems, while keeping in mind the size, complexity, and risk-profile of the institution.
The examiner-in-charge (EIC) is responsible for developing an examination plan that is
commensurate with the level of risk in each functional area and for documenting this plan in a
scope memorandum referred to as the Pre-Examination Planning Memorandum. The
memorandum sets forth scope decisions in terms of work to be performed, areas to receive
special attention, and decisions to limit examination procedures.

DSC’s Process Redesign Efforts

In 2000, DSC recognized the need to adjust to a changing banking industry and began a series of
process redesign efforts to evaluate its own organization. The DSC’s Process Redesign program
was divided into several phases focusing on strategic changes in examination processes and
economies in personnel.

Process Redesign I Streamlines Examination, Supervision, and Application Processes

In 2001, Process Redesign I resulted in recommendations to streamline DSC’s examination,
supervision, and application review processes. Some of the changes included: streamlining the
pre-examination process and loan reviews, revising the report of examination format, using
software packages to accelerate and standardize routine examination processes, training
examiners to review large and complex data service providers and vendors, and developing a
comprehensive contingency plan for major technology problems. DSC estimated that these
changes saved resources equivalent to the work of about 95 examiners.

Process Redesign II Establishes MERIT Guidelines

In 2002, Process Redesign II focused on the effectiveness and efficiency of examinations of
well-rated (1- and 2-rated), well-capitalized banks with total assets of $250 million or less.
Based on the low-risk profile of those institutions, DSC concluded that maximum use of risk-
focused examination procedures was warranted. Therefore, effective for examinations
commencing after March 31, 2002, DSC implemented the MERIT guidelines to assist examiners
in risk-focusing examination procedures in well-rated, well-capitalized banks while maintaining
the integrity of the examination process. MERIT guidelines reemphasized existing risk-focused
examination procedures and the use of examiner judgment to properly assess a financial
institution’s risk profile, and identified target ranges for the size of the loan sample selected for
review. Use of the MERIT guidelines is to be considered in the examination of all banks, where
appropriate. From April 1, 2002 through September 30, 2004, the FDIC conducted 5,976 safety
and soundness examinations, of which 2,290 were conducted using MERIT guidelines.

                                                  2
Less than 2 years after the implementation of the MERIT guidelines, the FDIC expanded and
modified the criteria for MERIT examinations commencing after January 31, 2004, as follows:

    •   The total asset threshold for eligibility was increased from $250 million to $1 billion.

    •   The basis for selecting the target loan penetration ratio1 range would be guided by the
        Asset Quality component rating of the CAMELS rating system rather than the composite
        rating.

    •   The subprime lender exclusion was broadened to encompass all banks identified on
        DSC’s Quarterly Lending Alert (QLA), which identifies those insured institutions
        engaged in lending activities that inherently pose an increased risk to the institution.

    •   The institution would be required to have a composite 1 or 2 rating at the previous two
        examinations, rather than just the previous examination.

Additional factors on the use of MERIT guidelines for examinations are outlined in Appendix II.

Additional process improvement efforts have focused on delegations of authority to field
supervisors, examination documentation, and a pilot “relationship manager” program for
continuous supervision.

Enterprise Risk Management

An important approach to managing risk is through a risk management framework In its
release, Enterprise Risk Management - Integrated Framework, dated September 2004, the
Committee of Sponsoring Organizations of the Treadway Commission (COSO)2 defined
enterprise risk management (ERM) components, described ERM concepts and principles, and
provided ERM guidance for all organizations. COSO defined enterprise risk management as “a
process, effected by an entity’s board of directors, management, and other personnel, applied in a
strategy setting and across the enterprise, designed to identify potential events that may affect the
entity, and manage risk to be within its risk appetite, to provide reasonable assurance regarding
the achievement of entity objectives.” Entities are to provide value for their stakeholders.
Management maximizes an entity’s value by setting a strategy and objectives that balance goals
for growth and return with related risks and by efficiently and effectively deploying resources.

Management should consider the entity’s risk appetite in setting the entity’s objectives and
developing mechanisms to manage the related risks. Entities often consider risk appetite
qualitatively with categories such as high, moderate, or low, or entities may take a quantitative
approach, reflecting and balancing goals for growth, return, and risk. An entity’s risk appetite is

1
  DSC Memorandum entitled, Loan Penetration Ratio, Transmittal No. 2002-018, dated March 26, 2002, defines
the loan penetration ratio.
2
  COSO, formed in 1985, is a voluntary private-sector organization dedicated to improving the quality of financial
reporting through business ethics, effective internal controls, and corporate governance. The members of COSO
are: the American Institute of Certified Public Accountants, the American Accounting Association, Financial
Executives International, the Institute of Management Accountants, and The Institute of Internal Auditors.
                                                         3
directly related to an entity’s strategy. That is, management considers its risk appetite as it aligns
its organization, people and processes, and designs an infrastructure necessary to effectively
respond to and monitor risks.

The COSO ERM framework is focused on achieving an entity’s objectives in four categories:

   •   Strategic:      high-level goals, aligned with and supporting its mission
   •   Operations:     effective and efficient use of its resources
   •   Reporting:      reliability of reporting
   •   Compliance:     compliance with applicable laws and regulations

ERM consists of various interrelated components that are derived from the way management
runs an entity and are integrated with the management process. These components are internal
environment, objective setting, event identification, risk assessment, risk response, control
activities, information and communication, and monitoring. There is a direct relationship
between the objectives and components as depicted in the model below. This audit focused on
the monitoring component of the ERM framework.


                              Enterprise Risk Management Model


    Objectives

                                                                                Entity’s Units


   Components




Source: COSO.




                                                  4
RESULTS OF AUDIT

DSC collects and evaluates readily available information related to the efficiency, quality and
integrity of all examinations, including those conducted under the MERIT guidelines. This
information shows that application of the MERIT guidelines for well-rated and well-capitalized
institutions has increased examination efficiency primarily as the result of fewer loans being
reviewed compared to prior risk-focused examinations. Further, DSC has risk management
processes and monitoring systems in place for monitoring its overall examination program and
the risks to individual institutions and the industry as a whole. However, DSC could benefit
from a monitoring process that specifically evaluates, in terms of risk, the outcome of the
reduced loan penetration at MERIT examinations, either at the institution level or, more broadly,
at the regional or national level. Such ongoing analysis would assist DSC in determining
whether recommended loan penetration ranges under MERIT are commensurate with the risk
associated with various types of loan portfolios in low-risk institutions. Finally, we found that
examiners are required to justify loan penetration levels above, but not below, MERIT-
recommended ranges. A clarification of this policy would promote the balance DSC is seeking
to achieve in providing risk-based coverage under MERIT and would ensure that reduced loan
penetration is adequately supported.


MONITORING THE EFFICIENCY AND RISK OF MERIT EXAMINATIONS

Information maintained by DSC on safety and soundness examinations shows that DSC’s
application of the MERIT guidelines has been successful in meeting Corporation and division
goals for reducing examination time for small, well-rated institutions. However, DSC does not
have a monitoring process that specifically evaluates whether reductions in loan coverage as
provided by the MERIT guidelines impact the effectiveness of examinations. Developing a
process or system for assessing the effectiveness of MERIT examinations would help DSC
determine the appropriateness of the loan penetration targets established in the MERIT
guidelines.

Monitoring Component of the ERM Model

We focused our audit on the monitoring component of COSO’s ERM model, which is described
as follows:

       Monitoring: Management assesses both the presence and functioning of its components
       and the quality of their performance. Monitoring is accomplished through ongoing
       management activities, separate evaluations, or both. Because ongoing monitoring is
       performed on a real-time basis and reacts dynamically to changing conditions, it is more
       effective than separate evaluations. Problems often will be identified more quickly by
       ongoing monitoring routines. Some combination of ongoing monitoring and separate
       evaluations will help ensure that ERM maintains its effectiveness over time.




                                                5
Reduction in Average Examination Hours

There has been a significant reduction in the number of hours expended by FDIC examiners in
conducting risk-focused examinations. This reduction is attributable to a Corporate Performance
Objective (CPO) and the MERIT guidelines, which were both established during the first quarter
of 2002.

Corporate Performance Objectives

A 2002 DSC CPO established a 20-percent reduction in the average time spent conducting safety
and soundness examinations of 1- and 2-rated institutions with total assets under $250 million.
The 20-percent objective did not apply to banks that had a 3, 4, or 5 composite rating at their
prior examination and had been subsequently upgraded to a 1 or 2 composite rating. The
objective also did not apply to institutions that had been downgraded to a 3, 4, or 5 composite
rating. DSC expected that a bank with a 1 composite rating would be examined in less time than
an examination of a bank with a 2 composite rating. Therefore, the time spent for an
examination of either bank is not expected to be reduced by exactly 20 percent. Accordingly, the
CPO required a 20-percent reduction in the aggregate rather than for each examination. DSC
Memorandum, Corporate Performance Objective – Composite 1 and 2 Rated Banks Under $250
Million, dated March 27, 2002, states that the time for some examinations may be reduced by
more than 20 percent of the national average examination hours for similarly sized institutions to
absorb the overage that occurred for other examinations. In 2004, another CPO established an
additional 10–20 percent reduction in examination hours.

DSC used the time spent for examinations in 2000 as the baseline to measure the attainment of
the 2002 CPO. After compiling data on independent, joint, and concurrent examinations started
in 2000 that resulted in composite ratings of 1 or 2, DSC stratified the examinations by asset size
and calculated the national average examination hours per asset category. The 2002 CPO
reduction in hours was significant. Specifically, in 2002, examiners would have had to reduce
the time for examinations by 175,775 hours, or by 20 percent, for 1- and 2-rated banks if DSC
conducted the same number of examinations of those banks as had been conducted in 2000.
DSC’s Washington and regional offices monitored the progress of the CPO. Field office
supervisors were required to explain in the Field Office Management Information System any
reasons for examinations that exceeded the target hours by 10 percent.

MERIT Guidelines

The examiners’ use of MERIT guidelines has led to the reduction of on-site hours for
examinations and an overall reduction in examination hours. The reduction in MERIT
examination hours is closely related to reduced examination coverage in loan reviews and
reduced transactional testing.

As shown in Table 1 on the following page, the time spent for conducting MERIT examinations
exceeded the 20-percent reduction that DSC was targeting.



                                                 6
Table 1: MERIT Examinations Compared to Prior FDIC Examinations
           (Percentage of Change in Average Total Examination Hours per Year)
              MERIT Examinations                           2002          2003         2004
  Number of Examinations per Year                           515           728          818
  Current Average Examination Hours                       301.14        319.50       341.56
  Prior Respective Average Examination Hours              438.53        445.20       467.62
  Reduction in Hours                                     (137.39)      (125.70)     (126.06)
  Percentage (Decrease)                                   (31.33%)      (28.23%)     (26.96%)
 Source: OIG analysis of DSC examination data.

Table 2 illustrates examinations for 1- and 2-rated banks that were not conducted under the
MERIT guidelines compared to prior examinations. The comparisons also indicate a reduction
in average FDIC examination hours. The reduction, however, was less than the reduction in
hours for the MERIT examinations.

Table 2: Non-MERIT Examinations of 1- and 2-Rated Banks Compared to Prior FDIC
         Examinations
           (Percentage of Change in Average Total Examination Hours per Year)
          Non-MERIT Examinations                        2002             2003        2004
  Number of Examinations per Year                       452               705         360
  Current Average Examination Hours                    569.08           522.87      438.44
  Prior Respective Average Examination Hours           689.54           623.76      529.19
  Reduction in Hours                                  (120.46)         (100.89)     (90.75)
  Percentage (Decrease)                                (17.47%)         (16.17%)    (17.15%)
 Source: OIG analysis of DSC examination data.

DSC’s Manual of Examination Policies states:

        The objective of a risk-focused examination is to effectively evaluate the safety and
        soundness of the bank, including the assessment of risk management systems, financial
        condition, and compliance with applicable laws and regulations, while focusing resources
        on the bank’s highest risks. The exercise of examiner judgment to determine the depth of
        review in each functional area is crucial to the success of the risk-focused supervisory
        process.

During the pre-examination planning for MERIT examinations, the EIC conducts risk scoping
activities for determining:

   •   work to be performed,
   •   areas to receive special attention, and
   •   the number and expertise of personnel required.

During the pre-planning phase and at the financial institutions, the EIC may expand the scope of
the examination if circumstances indicate that expanded procedures are necessary to fully assess
the risks of the institution.

                                                 7
Effects of Reduced Loan Coverage

One of the major changes that distinguish the MERIT guidelines from the prior risk-focused
examination guidelines is the establishment of loan penetration ratios to help standardize the
percentage of loans reviewed during MERIT examinations. DSC’s Manual of Examination
Policies provides that:

        An appraisal of lending and collection policies, the bank's adherence thereto, and the
        evaluation of individual loans are among the most important aspects of the examination
        process. To a great extent, it is the quality of a bank's loan portfolio that determines the
        risk to depositors and to the FDIC's insurance fund. Conclusions regarding the condition
        of the bank and the quality of its management are weighted heavily by the examiner's
        findings with regard to lending practices.

The examiners’ use of MERIT guidelines has led to the reduction of time expended on loan
portfolio reviews in well-managed banks. MERIT guidelines recommend loan penetration ratios
of 15 to 25 percent for Category-1 banks and 20 to 30 percent for Category-2 banks.3 These
percentages are generally lower than those for prior non-MERIT examinations where, for
example, the loan penetration ratio for an examination of composite 1- and 2-rated non-MERIT
banks ranged from 26 to over 50 percent. Table 3 below depicts loan penetration ratios for
MERIT examinations compared to loan penetration ratios used before the implementation of the
MERIT guidelines.4

Table 3: Loan Penetration Ratios: MERIT Examinations Compared to Prior FDIC
Examinations Conducted Before Implementation of the MERIT Guidelines
 Loan Penetration
 Ratio Ranges
 (Percentage of Loans
 Reviewed)              0-14 15-20 21-25 26-30 31-35 36-50 51-100 Total
 MERIT Examinations     21     287   384    209     27    31      8       967*
 Since June 2002
 Percent of Total        2% 30% 40% 21% 3%                3%      1%      100%
 Prior Respective Non- 28      42    48     116     124   395     214     967*
 MERIT Examinations
 Percent of Total       3% 4%        5%     12%     13% 41%       22%     100%
 Source: OIG analysis of DSC examination data.
* From April 1, 2002 through September 30, 2004, DSC examiners conducted 2,290 MERIT examinations.
However, loan penetration ratio information from the prior FDIC examinations was available for only 967 of the
banks.

We selected for review 967 MERIT examinations that were conducted from June 2002 through
September 2004. Our review showed that 901 (93 percent) examinations had loan penetration

3
  Category-1 Banks have an Asset Quality component rating of “1” at the last examination. Category-2 Banks have
an Asset Quality component rating of “2” at the last examination.
4
  Some of the FDIC examinations conducted before April 2002 may have been for banks that were not MERIT-
eligible based on current MERIT-eligibility criteria, but we do not have that information.
                                                        8
ratios of 30 percent or less. Regarding the FDIC’s 967 non-MERIT examinations conducted
prior to the implementation of the MERIT guidelines, 733 (76 percent) examinations had loan
penetration ratios above 30 percent.

Table 4 compares the loan penetration ratios for the 29 banks that had completed a cycle of two
FDIC-conducted MERIT examinations as of September 2004.

Table 4: Loan Penetration Ratio Ranges of Recent MERIT Examinations Compared to
         Ranges for Prior MERIT Examinations
 Loan Penetration
 Ratio Ranges (Percentage) 0-14 15-20 21-25 26-30 31-35 36-50 51-100 Total
 Number of MERIT            2      9      12     2     2     2      0      29
 Examinations Since June
 2002
 Percent of Total           7%     31% 41% 7%          7%    7%     0%     100%
 Number of Prior MERIT      2      2      14     6     1     3      1      29
 Examinations
 Percent of Total           7%     7%     48% 22% 3%         10% 3%        100%
Source: OIG analysis of DSC examination data.

Our comparison shows that examiners for the 29 banks reviewed fewer loans at the most recent
examinations. As Table 4 illustrates, for more than 80 percent of the MERIT examinations, the
average loan penetration ratio is below the target 30-percent range. Most notable is the shift to
the lower 15-20 percent loan penetration range—from 7 percent for the prior MERIT
examinations to 31 percent for the most recent MERIT examinations at the banks.

According to MERIT guidelines, when the actual loan penetration ratio exceeds the
recommended ranges (15 to 25 percent for Category-1 banks and 20 to 30 percent for Category-2
banks), the examiner should justify the variance in the Pre-Examination Planning Memorandum
and/or in the Confidential-Supervisory Section page of the Report of Examination, where
appropriate. However, the MERIT guidelines do not require a written justification when the loan
penetration ratios fall below the recommended ranges. Although we do not have data to
determine the specific loan penetration variances for the Category-1 and Category-2 banks,
Table 4 indicates that 7 percent of the selected MERIT examinations fell below the minimum
recommended 15-percent loan penetration ratio. Therefore, the potential risks associated with
loan coverage that is below the recommended loan penetration ranges should also require
justification.

Approaches for Monitoring the Impact of the MERIT Guidelines

As of March 31, 2005, the MERIT guidelines have been used by FDIC examiners for 3 years.
The reduction of loan coverage over long periods may or may not impact the levels of risk at
FDIC-supervised financial institutions, but DSC has not developed a formal process to evaluate,
in terms of risk, the outcome associated with the implementation of the MERIT guidelines.
However, there is significant data currently collected through the examination process that can
provide useful feedback to management.
                                                9
DSC has various monitoring controls in place for all examinations. Specifically, there are a
number of processes noted below that provide assurances with regard to the integrity of
examination findings, including examinations conducted under the MERIT guidelines:

   •    an alternating examination schedule with state banking departments,
   •    rotation of EICs,
   •    multi-tier staff involvement in the examination process,
   •    examination review processes,
   •    examination surveys,
   •    off-site monitoring programs, and
   •    banker outreach initiatives.

Additionally, the MERIT guidelines provide a filtering process so that only small, well-rated and
well-capitalized institutions are eligible for MERIT examinations. Further, DSC is expanding its
internal review work to increase the evaluation of examination work products. This action has
been taken in response to increased delegated processing of final examination work in the field
offices. As part of the expanded internal review work, DSC would provide an assessment of the
adequacy of loan coverage for a sample of examinations, including MERIT examinations.

The following approaches also could help DSC management monitor the impact of reduced loan
coverage provided by MERIT examinations:

    •   Track and compare various financial ratios, such as Past Due Loan percentages, to help
        monitor whether the quality of the overall MERIT bank loan portfolios are declining.

    •   Establish a periodic sample of MERIT-eligible institutions, and conduct in-depth
        examinations on these institutions. This would establish a control group for which the
        results could be statistically benchmarked to all MERIT examinations.

    •   Establish a periodic sample of MERIT-eligible institutions and utilize statistical loan
        sampling techniques for the associated institutions in lieu of judgmentally selected
        samples. This would establish a benchmark for selecting loan samples for MERIT
        examinations.

DSC management informed us that, in 2004, DSC examiners determined that about 300 banks
were no longer MERIT-eligible. These determinations are a clear indication that risk is being
considered at the institution level due to the use of the MERIT-eligibility criteria. However,
these criteria supplement but do not overshadow the need for a more systematic monitoring
process.

Beginning in 2004, DSC amended the Summary Analysis of Examination Report to collect the
following information on MERIT-eligibility factors:

   •    Banks identified on the QLA
   •    Management changes or change in control

                                                10
   •   Adverse external factors
   •   Change in the bank’s risk profile
   •   Niche bank, such as a credit card or Internet bank
   •   Significant new business lines
   •   Whether banks have an effective loan grading system.

Each of these factors has a direct impact on removing a bank from MERIT eligibility. An
analysis of this data will help DSC to determine why banks have been removed from MERIT
eligibility and to perform a risk-based assessment of the MERIT eligibility criteria. Another
ongoing audit by our office is focusing on DSC’s process for determining an institution’s
eligibility for MERIT guidelines.

Conclusion

FDIC management has deemed the MERIT guidelines to be a success. The DSC Director stated
that the benefits of the MERIT guidelines include less examiner time spent on-site at well-rated
institutions and more examination resources devoted to institutions with higher risks. FDIC
management made it clear that it intends to ensure that resources are focused on areas of the
greatest risk while preserving the integrity of the examination process. Due to less time
expended for examinations for well-rated institutions, the savings are quantifiable, and results
appear to be successful.

While the use of MERIT has clearly reduced examinations hours, the FDIC’s primary objective
should be to ensure the continuation of high-quality examinations, early identification of
problems and their root causes, and the development and implementation of appropriate
refinements to further enhance effective and efficient operations. For DSC to accomplish that
objective and effectively monitor, evaluate, and revise when appropriate the use of the MERIT
guidelines, it is essential that management have sufficient information on which to base its
decisions. In that regard, DSC would benefit from an ongoing monitoring process that evaluates
the outcome, positive or negative, of the reduced loan coverage provided by the MERIT
guidelines.


RECOMMENDATIONS

We recommend that the Director, DSC:

(1) Implement a monitoring process for tracking and evaluating the impact of reduced loan
coverage at MERIT-eligible institutions.

(2) Require examiners to justify variances in the Pre-Examination Planning Memorandum
and/or in the Confidential-Supervisory Section page of the Report of Examination if the loan
penetration ratio level falls below the recommended ranges for Category-1 and Category-2
MERIT-eligible institutions.


                                               11
CORPORATION COMMENTS AND OIG EVALUATION

On March 30, 2005, the Director, DSC, provided a written response to the draft report. The
response is presented in its entirety in Appendix III of this report. DSC did not concur with
recommendation 1 but did concur with recommendation 2. A summary of the Director’s
comments in general and on each recommendation follows.

DSC agreed with our observation that the application of the MERIT guidelines for well-rated and
well-capitalized institutions has increased examination efficiency, but disagreed “with the
report’s implication that the scaling back of loan portfolio reviews in the lowest-risk institutions
represents a potential risk to the integrity of safety and soundness examinations.” DSC pointed
out that it already utilizes a number of measures to ensure the quality and integrity of the
examination process and that the report does not consider the breadth and depth of the existing
management processes.

OIG Evaluation: The audit scope focused on DSC’s processes, reports, and other data for
examinations conducted within the MERIT guidelines. Thus, the draft report did not address
other risk management processes for DSC examinations. The report’s Background section
discusses the risk-focused examination process and how DSC’s process redesign efforts led to
the MERIT guidelines. MERIT guidelines encourage examiners to streamline the loan review
process, principally by establishing reduced loan penetration ratio ranges. We revised the report
to reflect that the reduction of loan coverage over long periods may or may not impact the levels
of risk at the financial institutions rather than implying that, in fact, there was increased risk. It
is our conclusion, however, that DSC could benefit from a monitoring process that specifically
evaluates the outcome, in terms of risk, produced by the reduced loan penetration provided by
MERIT examinations.

Recommendation 1: Implement a monitoring process for tracking and evaluating the
impact of reduced loan coverage at MERIT-eligible institutions.

DSC did not concur with this recommendation, stating that it maintains a strong risk
management process, in the form of a comprehensive quality control program, for all
examinations. DSC stated that in addition to a sound, risk-focused examination program and
utilization of a well-trained and experienced examination staff, there are a number of other
processes that provide assurances with regard to the integrity of examination findings, including
examinations conducted using the MERIT guidelines. In addition, DSC is expanding its field
territory internal review program. During the field reviews, DSC’s Internal Control and Review
Section will review a sample of examination reports and related work papers to ensure that the
examination scope (including loan review) was appropriate, identified examination procedures
were followed, and the bank’s risk profile was properly identified and addressed.

OIG Evaluation: In response to DSC’s comments on the draft audit report, the OIG met with
DSC management to discuss its concerns. As a result, we have modified the report to recognize
DSC’s related risk management and monitoring processes for all examinations (see page 10).
Further, DSC’s response provides an analysis of average loan penetration ratios by asset
category. Such analysis may assist in monitoring loan penetration ratios. DSC’s monitoring
                                                  12
processes for all examinations, loan penetration analysis such as that provided in DSC’s
response, and the upcoming field reviews covering the appropriateness of examination scope and
loan review will assist DSC in determining whether recommended loan penetration ratio ranges
under MERIT are commensurate with the risk associated with various types of loan portfolios in
low-risk institutions. In consideration of these factors and DSC’s response, we have concluded
that this recommendation is resolved, dispositioned, and closed.

Recommendation 2: Require examiners to justify variances in the Pre-Examination
Planning Memorandum and/or in the Confidential-Supervisory Section page of the Report
of Examination if the loan penetration ratio level falls below the recommended ranges for
Category-1 and Category-2 MERIT-eligible institutions.

DSC concurred with this recommendation. DSC will provide clarification to examiners,
indicating that variances both above and below the MERIT-recommended thresholds should be
explained in the Pre-Examination Planning Memorandum and/or in the Confidential-Supervisory
Section page of the Report of Examination, where appropriate. This clarification will be issued
in a written memorandum by June 30, 2005.

OIG Evaluation: This recommendation is resolved but will remain undispositioned and open
for reporting purposes until we have determined that agreed-to corrective actions have been
completed and are effective.




                                              13
                                                                                   APPENDIX I

                      OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of this audit was to determine whether DSC adequately tracks and evaluates
achievement of its goals for the MERIT guidelines. Specifically, we determined the adequacy of
processes, reports, and other data that DSC uses in monitoring MERIT examination coverage of
financial institutions. We performed the audit from May 2004 through January 2005 in
accordance with generally accepted government auditing standards.

Scope and Methodology

To achieve the audit objective, we performed the following:

  • Reviewed DSC policies and procedures related to examination scoping and planning and
     their impact on the allocation of examination resources.

  • Reviewed and discussed with appropriate DSC officials examinations associated with
     judgmentally selected banks.

  • Held entrance conferences with and interviewed DSC officials in Washington, D.C.,
     regional, and field offices as appropriate and necessary, and met with DSC officials
     periodically during the audit.

  • Met with DSC officials to obtain the results of DSC’s monitoring of the implementation of
     the MERIT guidelines and their findings which led to the expansion of MERIT to
     additional financial institutions during January 2004, as outlined in Transmittal 2004-001,
     dated January 27, 2004.

  • Reviewed FDIC-established performance goals/objectives that relate to its risk-focused
     examination process.

  • Reviewed previous Office of Inspector General audit reports related to risk-focused
     examinations.

  • Obtained, reviewed, and analyzed DSC reports and related information on risk-focused
     examinations conducted under the MERIT guidelines.

  • Performed an analysis to determine changes in the allocation of examination hours from
     low- to high-risk banks as a result of DSC’s planning and scoping for MERIT
     examinations.




                                               14
                                                                                    APPENDIX I

  • Reviewed DSC’s assessment of the MERIT guidelines, specifically the assessment used to
     justify expansion of use of the MERIT guidelines to additional institutions.

  • Assessed examiner comments/positions on potential problems and successes of MERIT.

  • Performed field work at DSC headquarters and at selected regional and field offices.

  • Obtained examination data of FDIC-conducted examinations from applicable FDIC
     automated systems--the Virtual Supervisory Information on the Net (ViSION) and
     Scheduling, Hours and Reporting Package (SHARP) systems. We did not review these
     systems for data processing procedures and control. We interviewed DSC management
     knowledgeable about the data and found it was sufficiently reliable for use in the audit.
     Further, our audit work did not disclose concerns about the examination data produced by
     the systems.

To determine if DSC systems for capturing and measuring examiner time are sufficient for
assessing the purpose of the MERIT guidelines, we analyzed the examination data from April 1,
2002 through September 30, 2004 for changes in total examination time, on-site time, and loan
penetration ratios for the following three primary MERIT factors:

  • Composite rating - MERIT institutions, 1 and 2 composite rated non-MERIT institutions,
     and 3, 4, and 5 CAMELS-rated institutions.

  • Asset size - MERIT institutions, non-MERIT institutions with assets under $1 billion, and
     institutions with assets over $1 billion that were not eligible for MERIT.

  • Capital adequacy - MERIT institutions, well-capitalized non-MERIT institutions, and less
     than well-capitalized institutions.

Summary of Prior Audit Coverage

The Office of Inspector General completed three prior reviews of the FDIC’s risk-focused
examination process. Audit Report No. 00-016, Follow-up Audit of the Implementation of the
Risk-Focused Examination Process, was issued May 5, 2000 as a supplement to the report on the
Audit of the Implementation of the Risk-Focused Examination Process, which was issued
November 5, 1998. These two audits focused primarily on the implementation of risk-focused
examination procedures and workpaper and documentation uniformity. Audit Report
No. 01-016, Audit of DOS’s Use of Expanded and Impact Examination Procedures in the Risk-
Focused Examination Process, issued March 30, 2001, focused on workpaper support for risk-
focused examinations. The three reviews addressed risk-focused examination procedures but
primarily focused on examination mechanics.




                                                15
                                                                                   APPENDIX II
                                    MERIT GUIDELINES

Effective March 31, 2002, the FDIC implemented the MERIT guidelines to assist examiners in
risk-focusing examination procedures at institutions with low-risk profiles. The FDIC developed
the guidelines for examinations of 1- and 2-rated well-capitalized banks with total assets of $250
million or less. DSC expanded and modified the MERIT guidelines for all examinations
commencing after January 31, 2004, as noted in DSC’s Memorandum entitled, Maximum
Efficiency, Risk-focused, Institution Targeted (MERIT) Guidelines, Transmittal No. 2004-001,
dated January 27, 2004.

   • The total asset threshold for eligibility was increased from $250 million to $1 billion.

   • The basis for selecting the target loan penetration ratio range was changed from the
      composite rating to the Asset Quality rating.

   • The subprime lender exclusion was broadened to encompass all banks identified on DSC’s
      QLA.

Additional MERIT eligibility factors noted in the memorandum include the following:

   • Stable Management - Banks with management teams that have not exhibited significant
     changes in operating management or boards of directors since the prior examination.

   • No Change in Control - Banks that have experienced a significant change in ownership or a
     change in control since the prior examination are ineligible for the MERIT guidelines.

   • No Significant Adverse External Factors - Natural disasters or local and national adverse
     economic conditions could result in the exclusion of a bank from examination under the
     MERIT guidelines.

   • No De Novo, Niche, or Banks Identified on DSC’s Quarterly Lending Alert - These banks
     are excluded from examination under the MERIT guidelines. De novo refers to a bank that
     is “new” or newly formed or chartered and insured. De novo banks, for the purpose of the
     MERIT guidelines, are institutions that have been FDIC-insured for less than 3 years.
     Currently, the QLA includes:

           o Institutions in which subprime loans represent 25 percent or more of Tier 1
             capital.




                                                16
                                                                                        APPENDIX II

                o Institutions in which high loan-to-value loans represent 25 percent or more of
                  Tier 1 capital.

                o Institutions that, as a significant part of their business, make or purchase loans for
                  sale or securitization and have those loans serviced and held off-premises by third
                  parties or affiliates.

                o Institutions in which residual assets represent 25 percent or more of Tier 1 capital.

                o Institutions directly or indirectly engaged in payday lending.

      • No Significant Change in Risk Profile Evident from Off-Site Analysis or Monitoring
          Systems – The presence of a bank on the Growth Monitoring System (GMS), Statistical
          CAMELS Offsite Rating (SCOR), and Real Estate Stress Test (REST), etc., will not
          automatically exclude a bank from examination under the MERIT guidelines. However,
          adverse conclusions derived from off-site monitoring systems should make a bank
          ineligible for a MERIT examination.

      • Effective Loan Grading System – Banks that have adequate formal or informal loan grading
          processes appropriate to the size and complexity of the institution should be considered for
          MERIT guidelines. Small, rural banks may not have a formal loan review or grading
          system, but if management exercises appropriate risk selection and identifies credit quality
          concerns, such banks should be considered for the MERIT guidelines.

      • No Significant New Business Lines – Banks that have entered significant new business
          lines since the prior examination are ineligible for the MERIT guidelines.

      • No Component rating of 3, 4, or 5 – Banks with any component rated 3, 4, or 5 at the prior
          examination, or in subsequent rating changes, are ineligible for the MERIT guidelines.

Even though a bank does not meet the criteria to qualify for the MERIT guidelines,
examiners are still encouraged to maximize the use of current risk-focused examination
procedures in areas that pose minimal risk to the institution. Banks meeting the criteria are
divided into two categories:

           Category 1 - Banks with an asset quality component rating of 1 at the last examination.5

           Category 2 - Banks with an asset quality component rating of 2 at the last examination.




5
    Includes state banking authority examinations accepted by the FDIC.
                                                         17
                                                                                  APPENDIX II

For examinations of Category-1 banks, the loan penetration ratio should generally range from
15-25 percent. For Category-2 banks, the loan penetration ratio should generally range from
20-30 percent. The EIC has the discretion to target a loan penetration ratio that may be above
these ranges, with the Field Supervisor’s or Supervisory Examiner’s concurrence.




                                               18
Appendix III
     APPENDIX III




20
     APPENDIX III




21
     APPENDIX III




22
     APPENDIX III




23
     APPENDIX III




24
     APPENDIX III




25
     APPENDIX III




26
     APPENDIX III




27
                                                                                                                                            APPENDIX IV

                                           MANAGEMENT RESPONSE TO RECOMMENDATIONS

This table presents the management response that has been made on the recommendations in our report and the status of the
recommendations as of the date of report issuance.
                                                                                                                                                           Open
 Rec.                                                                                   Expected        Monetary      Resolved:a     Dispositioned:b        or
Number                  Corrective Action: Taken or Planned/Status                     Completion       Benefits      Yes or No        Yes or No          Closedc
                                                                                          Date
              DSC’s monitoring processes for all examinations, loan                       Not               $0            Yes               Yes           Closed
      1       penetration analysis such as that provided in DSC’s                      Applicable
              response, and the upcoming field reviews will assist DSC in
              determining whether recommended loan penetration ranges
              under MERIT are commensurate with the risk associated
              with various types of loan portfolios in low-risk institutions.
              DSC will provide clarification to examiners indicating that                 June 30,          $0            Yes               No             Open
      2       variances both above and below the MERIT-recommended                          2005
              thresholds should be explained in the Pre-Examination
              Planning Memorandum and/or in the Confidential-
              Supervisory Section page of the Report of Examination,
              where appropriate.
a
    Resolved – (1) Management concurs with the recommendation and the planned corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
               (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long
                   as management provides an amount.
b
  Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved
through implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the
recommendation.
c
    Once the OIG dispositions the recommendation, it can then be closed.




                                                                               28
